U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 27, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Deruise v. United States, No. 20-6953
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 7,
2021, and was placed on the Court’s docket on January 26, 2021. The response of the United
States is now due, after two extensions, on April 28, 2021. We respectfully request, under Rule
30.4 of the Rules of this Court, a further extension of time to and including May 26, 2021, within
which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-6953
DERUISE, DWYNE BYRON AKA DUKE
USA

PETER VINCENT BIRCH
ASSISTANT FEDERAL PUBLIC DEFENDER
450 AUSTRALIAN AVENUE
SUITE 500
WEST PALM BEACH, FL 33401
561-833-6288
PETER_BIRCH@FD.ORG

